U.S. Department of Justice
Office of the Inspector General                                                                   i
                                      •   .
                                  |           m .............             i




A Review of the FBI's Handling and Oversight
of FBI Asset Katrina Leung. (U)




                Unclassified Executive Summary


                                                                Office of the Inspector General
                                                                                      May 2006
                                     EXECUTI_                 SUMMARY

I.        Introduction

         In May 2000, the Federal Bureau of Investigation             (FBI) receiw_d
credible information       that Katrina Leung, one of the FBI's most highly paid
assets, was actively spying for the People's Republic of China (PRC) against
the United States. 1 A year later, the FBI began an investigation               that led to
the discovery that Leung had been involved in an intimate                romantic
relationship     witZh her handler     of 18 years, Special Agent James ,J. Smith,
who retired from the FBI in November 2000, The investigation                  also revealed
that Leung had been involved in a sporadic affair with William Clevdand,
another     highly regarded    FBI Special Agent, who retired from the FBI in
1993. The FBI's investigation          further established     that over theyears,    FBI
officials had lea:reed of several incidents         indicating   that Leung had provided
classified U.S. government         information    to the PRC without FBI
authorization.      During the 18 years Leung was an asset, the FBI paid her
over $1.7 million in services and expenses.
          In April 2003, Smith and Leung were arrested.              FBI Director Robert
 Mueller asked the Office of the Inspector          General (OIG) to reviewthe           FBI's
 handling     of Leung and the performance         and management         isSues relating to
 her case, and to recommend          changes    to improve FBI procedures          and
•practices where necessary.         The OIG's investigation       revealed that the FBI
 did little or nothing to resolve the numerous          counterintelligence       concerns
 that arose during Smith's handling          of Leung. This report describes           the
 OIG's investigation      and provides recommendations           designed    to address     the
 flaws we identified,     including   the FBI's failure to consistently       document
 concerns     about Leung, its failure to follow up when concerns             arose, and its
 willingness     to exempt Smith from the rules governing asset handling.

II.       Methodol[ogy          and Scope          of the Report
        The OIG reviewed and analyzed more than 300,000 pages, of material
from the FBI and other Intelligence       Community       agencies.     We conducted
more than 100• interviews      in Los Angeles, San Francisco,          Northern virginia,
Southern     Maryland,   and the District of Columbia.        The team interviewed
Smith's former colleagues.     and supervisors      at the FBI. We inteF_iewed       much
of the hierarchy    of the FBI's Counterintelligence       Division.    In addition, we
interviewed    DOJ and Intelligence    Community        personnel     who had
involvement    with Smith, Leung, or the investigations           of them. The team
also interviewed.   Smith and Cleveland extensively.



      c

     1 In this report,       the terms   'China'   and   'PRC' will be used   interchangeably   to, refer   to
the People's Republic        of China.

                                                          1
        We provided copies of the report to the FBI for its comments
concerning    factual accuracy    and classification.      The 236-page     re,port has
been classified by the FBI at the Secret level because, according              to the FBI,
it contains   sensitive classified information      regarding  intelligence: sources
and methods. 2

        The full report is divided into four chapters.         Chapter One provides
the backgrounds      of Smith and Leung and an 'introduction            regarcling the
FBI's ChineseCounterintelligence          Program.    Chapter     Two addresses      the 18-
year period during which Smith Operated Leung and is divided into four
time periods.    Chapter Three examines         the FBI's investigations      of Smith and
Leung and describes       the steps the FBI has takento         address    the problems    in
the China program.       Chapter Four contains       the OIG's conclusions        and
recommendations.        This unclassified    summary      of the report summarizes       the
findings, conclusions,      and recommendations        of the report.

III.    The OIG Investigation

        A.      Background
         The FBI's China program faced several significant            challenges   during
 the time Smith operated          Leung. Field agents, supervisors,      and program
 managers      told us they were overwhelmed         by the volume of work that
 required    their attention.      They said that during the years Leung served as
 an FBI asset, the FBI's China Program was understaffed,               overworked,    and
 experienced      regular turnover     in management.      This report exp]Lores how, in
 this environment,       the FBI failed to detect the activities of Smith and Leung
 and failed to address        problems   when they arose.

                I.     The FBI's Chinese         Counterintelligence             Program
        After the United States and China normalized          relations    in 1979, the
Chinese presence      in the United States increased      dramatically.       By 1[982,
there were approximately      10,000 Chinese students        in the United States and
more were arriving at the rate of approximately          300 students      per month.
The number      of Chinese visitors to the United States also increased            to more
than 15,000 pe:r year and the number of Chinese immigrants                 exceeded
14,000.    The FBI determined      that the most effective means to counter the
threat posed by this increased       presence    was to develop a large asset base,
However, onlya few FBI agents wereavailable            to investigatean       increasing
population    of Chinese students,     visitors, and government       officials.
        In the early 1980s, FBI Headquarters        delegated  a great deal of
authority    to the field to recruit, develop and handle assets.      The devolution
of authority    from FBI Headquarters      to the field had both positive and


    2 We have provided the full report     to the FBI, DOJ officials   and   Congressional
committees with oversight responsibility    for FBI programs.

                                                2
           negative consequences:      the field divisions had the flexibility to develop and
           implement   creative operations    to address counterintelligence       .concerns,    but
           FBI Headquarters     program .managers      told us it left Headquarters      rn.anagers
           with the belief that they could not give orders to the field or interfere in field
           operations.

                         2.     Smith's    Background       and FBI Career
                    Smith, a college graduate       and Vietnam veteran,   entered on duty with
            the FBI in October       1970 as a Special Agent. Following his first office
           •assignment      in Salt Lake City, Smith spent the remainder       of his FBI career
            in Los Angeles.      He specialized   in FCI PRC matters   from 1977 until his
            retirement    in 2000.    Smith received promotions     and was frequently
            commended        for his performance.
                   By 1982, when Smith opened Leung as an asset, the FBI considered
         him to be an agent who needed supervisory             direction    only in those instances
         where he clearly lacked the authority         to act unilaterally     on behalf of the FBI.
     . . Smith had achieved a level of trusted independence               and his supervJisors
         relied on his judgment          and his recommendations       regarding   the squad's
.;.::!.i.:_.
      ....in,_estigative  responsibilities.                                                  .
     .......       Smith was promoted      to China Squad supervisor       in Los Angeles in
     ...... 1996, yet retained   sole responsibility  to handle Leung.      By all accounts,
             Smith was knowledgeable      of the China target, successful,     well respected,
      • . and experienced      in the work of the China squad.

                         3.     Leung's    Background
                Leung's family background        is unclear because   her official immigration
_,:!.!_file contains   substantial   discrepancies     between what official documents
       reveal and what Leung ultimately          told Smith about her ancestry.       Along with
-.     a woman who claimed to be Leung's mother but was probably                  her aunt,
       Leung emigrated       to the United States in 1970, using a Taiwanese          passport
       stating that she was born on May 1, 1954, in Canton, China.                Eight days
       after their arrival in the United States, Leung's _'mother" married a U.S.
       citizen.   Leung enrolled at Washington         Irving High School in New York City
       and graduated      in June 1972. Leung became a permanent             resident   alien on
       August 7, 1972.
                    Leung obtained an undergraduate     degree from Cornell University  in
            1976 and a Masters in Business     Administration   fromthe  Universi_T of
           Chicago a few years later. In the 1970s while she was a student,       Leung
           began to develop contacts   with, and access to, persons of investigative
           interest   to the FBI.




                                                        3
                                                                                     r


                      4.     Leung    Comes    to the Attention       of the FBI
               In early 1'980, Leung moved to Los Angeles, where she resided in an
       apartment     building the FBI characterized     as a "nest of spies" that was
       occupied by subjects     of other FBI investigations.      Upon her arrival in Los
       Angeles, Leung became the general manager             of an import-export    company
       suspected    of engaging in the illegal transfer of technology       from the United
       States to the PR.C. In late I980, the FBI began a full espionage           investigation
       of that company.
                The FBI authorized    a full field counterintelligence       investigation     of
        Leung on February       10, 1981 predicated     on her contacts       withpersons       of
        investigative  interest to the FBI. FBI documentsstated             that Leung was
        "believed to be engaged in clandestine       intelligence    gathering     on behalf of the
        PRC and/or     may be furnishing     or about to furnish sensitive         teclhnological
       information    to the PRC."

                After the case agent originally assigned to investigate       Leung
       transferred    from Los Angeles, Leung's case was assigned          to an
       inexperienced      agent who was admittedly     uninterested     in FCI matters.   One
       month later, in August 1981, the Los Angeles Division learned that Leung
       had a close relationship     with a pro-PRC activist who was also a principal
       subject in an FBI technology      transfer investigation     conducted    by the San
       Francisco     Division.  San Francisco    agent William Clevelandwas        the lead
       case agent for the investigation,      and Smith was assigned       to be the case
       agent for the Los Angeles aspects of that investigation.                                       ,.



                The Los Angeles Division took. no immediate          action afterit    learned
....   about Leung's relationship         with the subject    of the San Francisco
       investigation.      The FBI learned that Leung had left her job as general
       manager      of the import-export      company   in early 1980, and in Nc)vember
       1981 the Los Angeles Division closed the Leung investigation.                The (:losing
       communication        contained    no reference to Leung's relationship        with the
       Subject of the San Francisco         technology   transfer investigation     and no
       resolution     of the issue of Leung's other PRC contacts,         the primary reason
       the FBI opened the investigation          of Leung.   Instead, the closing
       communication        stated that Leung was unlikely to cooperate          with the FBI.
       With the approval of her squad supervisor,            the FBI agent to whom Leung's
       case had been reassigned         closed the case without attempting        to interview
       her, telling us that she believed she could not interview Leung because
       Leung was the ,,subject of an investigation.
                The case agent's rationale       is incomprehensible.       According to FBI
       documents,      the.. standard   objective of investigations      such as the'. one opened
       on Leung was to determine          whether     the subject posed a threat to national
       security or had asset potential.          FBI documents      also state that the most
       logical way to resolve this objective is often through an interview of the
       subject.    Further,     neither the squad supervisor       nor the case agent could
                    have known                whether           Leung would       be cooperative   without   attempting   an
                    interview.

                         Based on our review, we concluded             that the Los Angeles •Division
                 should not •have treated the investigation           of Leung as dismissively     as it
                seems     to have, especially     in light of her connection     to two ongoing
                 technology      transfer investigations.       During the early 1980s, the FBI knew
                 little about China's quest •for technology.           Once the FBI authorized      a full
                 foreign counterintelligence        investigation    of Leung, the Los Angeles Division
                 should have given the case more attention.               The FBI's failure to fully
                 investigate     Leung early on was a lost opportunity         to obtain information
                 concerning      the PRC's attempts       to acquire technology     and her contacts     with
                 persons     of investigative  interest to the FBI.

                                         B,   Significant           Time     Periods
                                                   C_   •   o
            In 1982, omlth developed    Leung as an FBI asset.   He continued                                             to
     operate her as an asset for 18 years, until he retired from the FBI in
     November    2000. The following sections summarize     the OIG's findings                                            from
 • •i:o_Urreview of Sraith's
      ........_,_.
                             18-year operation
                                     ,,_.
                                               of Leung as an FBI asse.t.
_._              ........:   .....


....
 :_ _:_:_
        _                                     I.            First   Phase:    1982'1983

                    By 1982, the FBI knew about Leung's contacts             with persons of
.... investigative         interest   to the• FBI, that •she had been the general manager          of
  ........•an import-export       company    suspected   of conducting    illegal technology
           transfers   to the PRC, and that she was linked to a pro-PRC activist and
....
  :_i.._:_-_principalsubject of the San Francisco         technology   transfer investigation,     who
   •_:_._:•!had  been arrested in the PRC. The San Francisco            investigation    had stalled.
             ••           In August 1982, Smith decided to re-open the investigation         of Leung
                  in the hope thai: she could provide information      concerning   the l:_rincipal
                  subject of the San Francisco    technology   transfer case and other matters.
                  Smith first interviewed  Leung in August 1•982. According to Smith, Leung
                  was very forthcoming    with information   concerning    a number of matters      of
                  interest to the FBI. Smith interviewed     Leung several times during the fall of
                  1982, and in December      1982 Leung was converted       from the subject of an
                  investigation  to an FBI asset.
                           When Smith opened Leung as an asset, he was a 12-year veteran
                   Special Agent with over six years' FCI experience,   five of which involved                                 the
                   China program.     The FBI recognized  Smith's success in developi[ng and
                   handling   other assets and trusted his judgment.
                           Smith obtained    Leung's immigration     records, conducted      the requisite
                   criminal checks, attempted       unsuccessfully    to obtain Leung's toll records
                   (the local service provider refused to honor the letters), cross-referenced           her
                   information   with•information     other assets provided about her, and asked
                   FBI Headquarters      for all the information   contained   in its indices about

                                                                                       5
Leung.     We found no indication   that Smith's background                  investigation  and
vetting   of Leung prior to her conversion  into an FBI asset                was inadequate.
       Consistent  with her high profile in Los Angeles, Leung's access to
Chinese diplomatic    officials and prominent overseas Chinese in the United
States enabled her to obtain and provide information     of significance, to the
FBI. 3

        In August 1983, less than a year after             Smith first interviewed     Leung,
they began their sexual relationship.   Smith              said he was confident     that
Leung would not disclose their relationship               or try to blackmail   him,
:reasoning thatshe   had lust as much to lose              ashe did.
        The OIG found no indication that, at this time, anyone in the FBI
suspected   that Smith had begun an intimate relationship    with Leung.
When Smith began the affair with her, he was considered      one of the top
agents on the Los Angeles Division's China Squad.

               2.        Second      Phase:   1984-1989

        Throughout    the_ 1980s, FBI Headquarters       delegated a greatdeal of
autonomy     and authority    to. the field to conduct China program operations.
Smith operated Leung with only a modicumof             substantive  input from his
supervisors    in Los Angeles and at FBI Headquarters.
         With Smith's assistance     inaccelerating   the process, Leung became a
U.S. citizen on March 16, 1984. By then, the FBI's plan for Leung was to
have the PRC intelligence      services (PRCIS) recruit her as an agent of China.
To facilitate this, the FBI encouraged        Leung to flaunt her contact with the
FBI and her high-profile     status in the Chinese     community:  in the United
•States.                                                                     _

        In June 1984, Leung began traveling frequently   between the United
:States and the PRC as a double agent working on behalf of the United
States, gathering  information  from the PRCIS and reporting    it back to the
FBI. The PRC's Ministry for State Security (MSS), a counterintellige.nce
agency of the PRC, recruited   Leung. FBI documents    indicate that. the pRCIS
believed that Leung was a low-level source of the FBI's Los Angeles office.
        In August: 1984, the FBI began providing monthly payments          to Leung
for services and expenses.     In September     1984 and in January    198(5, Leung
passed FBI polygraph     examinations    regarding whether she had unreported
contacts   with Chinese intelligence   services, whether   she had deliberately
provided the FBI with false information      about her contacts   with the
Chinese,    and wlhether she had told anyone she was cooperating        with the
FBI.


      3 The PRC refers   to individuals   who were born   in China   but live elsewhere      as
"overseas  Chinese."
                                                     ..



                                                 6
                                                                                      ....
 •          •In 19,84, Smith became the lead case agentfor               the espionage
   investigation      of :former FBI Agent Richard Miller, who was suspected                of
   unlawfully      passing    classified information       to Svetlana    Ogorodnikova,    a•Soviet
   agent with whom Miller Was having an affair. At the same time, Smith
   continued      the cIandestine       romantic   relationship     with Leunghe     lhad begun a
  year earlier, telling us he viewed the Miller case as merely a "cautionary
   tale." Smith's supervisor           told us that one day during the Miller
   investigation,      when Smith said he was going to meet Leung, ' the supervisor
   casually asked (_     omlth
                            "     whether he was involved in a Miller-Svetlana
   situation.     The supervisor        said he accepted      Smith's denial because     ]he
 trusted      him. The supervisor           said he never truly suspected       that Smith was :
  actually romantically          involved with Leung.
           Between the mid-1980s        and 1990, Leung became more well known
 •.and well-connected       in the West Coast Chinese community,          entertaining  PRC
  diplomatic    officials and• •Organizing huge banquets      for high-level PRC
  government      officials who visited Los Angeles.     Through these acl:ivities,
  Leung met PRC President          Yang Shangkun,• who became her patron. Leung's
  conn_ec_tions to Yang and to the PRC's diplomatic         community       on the West
 •Co•ast•also put her in the position of advisingthe         PRC concerning        the
  location for a new PRC Consulate          in Los Angeles in 1988. Leung's access to
  officials at the San Francisco       Consulate• also was useful to the San
  Francisco     Division's China Squad, and she provided reporting               concerning
  the activities of San Francisco    Consulate officials who visited            Los Angeles.
        ••.:_ We found that the FBI vetted Leung and validated             her information      in
.....the_;.1980s.   However, we found one incident          that •should have caused the
• :FBI:.qoncern about Leung during this period.               In late 1987, Leung asked a
    PRC_Qonsulate       official in San Francisco      to call her from a pay te:lephone,
    implying that she had something           to tell him that she did not want others to
    hear) Altl_ough the FBI Los Angeles Division initiated an investigation                  into
    the matter, the investigation       was closed when the case agent lem-ned that
    Leung was an FBI asset.         There is no documentation          in the file to indicate
    whether     Smith authorized     Leung to contact the consulate          official, and no
    follow-up from anyone at the FBI concerning •why Leung made such. a
    contact or what she discussed.           Neither Smith nor his supervisors
    documented       any resolution    of the matter.
           Other than that incident,     the FBI had no reason to question       Leung's
  reporting    and access through     the end of the I980s.     Leung passed two
  polygraph     examinations,    and an experienced     San Francisco    agent and an
  FBI Headquarters       analyst gave Leung positive assessments        regarding   •her
  access to information       and her suitability  as an FBI asset.   A Chinese
  defector also confirmed       much of Leung's reporting     during this time. CIA
  officials, who received much of the information         Leung reported concerning
  the PRC, also provided positive feedback on her reporting.           By the end of
  1989, Leung's prominentplace          in the FBI's China program was assured•

                                                   ,
when she traveled to the PRC shortly after the Tiananmen      Squa_re incident
and reported infbrmation    to the FBI concerning political Conditions  in the •
PRC government,    at a time when virtually no such information     made its way •
out of China.

        During the late 1980s, unbeknownst           to Smith or anyone else in the
FBI, Leung and San Francisco           SSA William Cleveland also began a sporadic
sexual affair, fac'ilitated by Leung's travel •to San Francisco        for matters
unrelated    to the FBI. Smith had introduced          Leung to Cleveland anci.to
several other San Francisco         agents because    Leung was considered       a
resource   for information     concerning   the San Francisco    Division's technology
transfer investigation      and individuals   at the PRC's San Francisco       Consulate.
Cleveland was described         to us as a very religious man who was universally
well regarded,    dedicated    to the FBI, and considered     a mainstay    m the FBI's
China Program :in the• 1980s and early 1990s until his retirement              in 1993.
         According to Cleveland, •Leung initiated their relationship.            He toldus
that Leung did not try to elicit information           from him and he did not discuss
FBI matters witl_ her when they were alone. Smith admitted to us that he
shared operational        information    ;with Leung, but Cleveland steadfastly
maintained      •that he provided no information         to Leung, nor did she ask him
for it. Cleveland was later interviewed           extensively   by the FBI in 2002 and
described     in detail his relationship      with Leung.     He passed a
counterintelligence-focused          polygraph examination       during whiclh he denied
providing sensitive information          to any representative     of a non-U.S.
intelligence     service.

               3.     Third   Phase:   1990'1996
        •We found that in the 1990s, several events should have led the FBI to
question   the extent of Leung's loyalty to the United States and the nature of
Smith's relationship    with her. Two of the most serious     incidents    in the early
1990s showed that Leung was providing classified information            to the PRC
without FBI authorization.       However, the FBI failed to document      the
incidents   in Leung's file, relied on Smith to resolve the concerns      about
Leung, and then failed to follow up further to ensure that he had done so.
These incidents    underscore     the need for consistent documentation       of red
flags and    negative reporting   in an asset's file and an explanation      of how
concerns     arising from such matters      are resolved.  The incidents   also
highlight    the need for continuous    objective assessment     of an asset's bona
tides and    illustrate the dangersin    allowing a •single agent to handle an asset
for such    a long period of time.                             •

                      a.      Red Flag in 1990
        In June 1990, the FBI received reporting     indicating   that I,eung had
disclosed to PRC officials the existence  and location of a then-actiw_
sensitive technical  operation that remains   classified,    as well as aspects of a

                                              8

                                                                                             I
        highly classified FBI counterintelligence   program.   This reporting    raised
        serious questions  concertiing    Leung's unauthorized   activities on be]half of
       •the PRC, However, we found that the FBI's response        to. this event was
        inadequate.
                Although    there were several communications             between FB][
        Headquarters      and Los Angeles concerning          this matter, the communications
        were not consistently       captioned,   and as a result they were placed in
        different files. Almost no documentation            of the incident     was placed in
        Leung's file. The FBI Headquarters          Unit Chief responsible        for oversight    of
        both the technical      operation    and counterintelligence       program    questioned
        Smith concerning       the incident and accepted         smith's explanation      that Leung
       could not have made the disclosure           about the counterintelligence           program
       because      Smith had not known about it. The Unit Chief failed to ask further
        follow-up questions       and did not question      Smith concerning        Leung's
        disclosures    concerning     the technical  operation,      We found no indication        that
       the Unit Chief, who is now retired, ever attempted               to resolve the concern
        that Leung not only knew about the technical              operation    but also disclosed it
     ......
       totl_iPRC.     FB][ documents     show that another  China Section Unit Chief,
   • who_as       responsible   for oversight of Leung at the time, was also aware of
,,i_: the matter and :[ailed to take any action to ensure that it was resolved.
    ....        Weconcluded     that FBI Headquarters   made a significant    mistake by
...... failing to follow up on the concerns    raised by Leung's disclosures.      The
   _ reportingshould        also have exposed the FBI's lack of control over
         information   Smith shared with her.

 .....                        b.      Red Flag in 1991
 •-•         :_!_n April 1991, just ten months later, the FBI learned that Leung was
        using an alias to communicate           with her PRC handler.      During t]hese
       conversations,      Leung disclosed      details concerning    ongoing FBI operations
        and investigations.       Again, the FBI did not adequately       address the issue.
        Although FBI Headquarters          held a meeting to discuss the matter, we found
        no documentation        of the incident    in Leung's file except for the            •
        communication       arranging    the meeting at FBI Headquarters.
               Moreover,. the full extent of Leung's disclosures          was not provided to
       the participants      at •the meeting.    A China analyst present at the meeting was
       unaware     that Leung had actually provided to the PRC details of ongoing FBI
       operations     and investigations.      The analyst was also unaware       of Leung's
       previous disclosures         to the PRC concerning     the sensitive technical   operation
       and aspects of the classified FBI counterintelligence             program.  During the
       meeting, the analyst expressed           no sense of alarm at those of Leung's
       disclosures     of which he was aware.         The analyst said he believed at the time
       that the FBI was gaining far more from Leung than it was giving away.
       Consequently,       the analyst advised against terminating          Leung as an. asset
       and his recommendation             was accepted.

                                                      9
        We found that Smith's reputation          at the time was such that he was
treated as beingabove        reproof.  Participants     at the meeting told us that
there was a sense that Smith needed to assert stronger control over Leung,
but FBI Headquarters         matiagers  decided to let Smith personally          resolve the
concerns     about Leung.      However, FBI Headquarters         failed to follow up to
ensure that he had done so. Incredibly,            no one questioned      how it was that
Leung had obtained the information            she supplied    to the PRC. During our
investigation,      Smith conceded that he was the source of any information               she
supplied    to the PRC. Had the FBI followed up and pursued                the reliability
concerns     arising from this reporting     about Leung's activities,       the
fundamental        flaws in Smith's operation     of her might have been revealed 10
years before the FBI actually began such an investigation.

                      c.      FBI Management         Failures
        We concluded   that the performance   of both the Unit Chief' and the
Assistant   Section Chief, who were responsible     for oversight of Le.ung during
both the 1990 and 1991 incidents,      was deficient.    FBI documents    establish
that they were aware of the two incidents,      yet, despite Leung!s stature in
the FBI's China program,     neither drew a connection      between the two
matters   that raised serious concerns   about the extent of Leung's loyalty to
the United States.

       •The FBI's Los Angeles Division also failed to provide adequate
oversight of Smith at this time, enabling him to respond •to the few concerns
FBI Headquarters    did express without input or follow up from his chain of
command.     The Los Angeles SSA who supervised       the China Squad at the
time of the 1990 reporting    admitted   tous that he readily deferred to Smith
because he was very impressed       with him and because     Smith hadbeen  on
the China Squad for so long.   .   .



        Atthe time of the 1991 reporting,  Smith was theacting          supervisor    of
the squad and he did not inform the incoming SSA about the derogatory
reporting.   The Los Angeles ASAC who was responsible          for FCI matters     at
the time claimedhe     had no recollection of either incident;     however, FBI
documents     show that he was aware of sufficient information        to haw_ put
him on notice that there was a problem with Leung.
        When we asked Smith why he continued             operating     Leung despitehis
knowledge    that she had disclosed       classified information     to the PRC without
FBI authorization,      he stated, that he-believed    Leung was too important       to be
discontinued     as an FBI asset.     However, he admitted       that he feared that
exposing her.disclosures        would result in an inquiry that could have exposed
his romantic    relationship     with her, ending both the case and his career.
       According to Smith's contemporaneous     notes, he confronted  Leung
about her alias .and her disclosures.   Leung responded   that the PRC had
discovered   her relationship with the FBI in 1990 and had coerced her into
cooperating   with them. She told Smith that she had to give information    to
                                              10
                the PRC in order to get information    from it. Smith said he told Leung she
                would have to take a polygraph     exam and she refused.    According to Smith's
                notes, Leung confirmed   that she disclosed what Smith knew was sensitive
                and classified material c6ncerning    FBI operations  and investigations.
                         Smith told us that he did not consider ending his professional
                relationship     with Leung because he truly believed he could regain Leung's
                loyalty to the United States.      But Smith did not inform anyone at the FBI
                about the details of his confrontation       with Leung. Instead, he merely
                asserted     that the matter had been resolved.     His FBI Headquarters
                managers       accepted  him at his word and failed to further question     him.
                Smith's managers        should have •required him to re-assess    Leung"s reliability
                and bona tides and report back to FBI Headquarters,           but they failed to do
                so. Smith said that for the next three or four months,         he was more
                circumspect       with Leung than usual, but eventually    things went back to the
                way they had been before the issues arose and the entire matter appeared              to
                be forgotten.

            •
              ........
                  •The FBI's failure to closely question
                     .,$_'_:.. "_.
                                                             Smith to resolve how it was that
        Leung']earned       t]he detailed information    she supplied    to the PRC was
        seriously deficient,      because Leung's disclosures       could have had serious
       • adverse consequences          for the United States' security interests.     The lack of
        documentation        !in Leung's file concerning    the two incidents    also facilitated
        the FBI's failure to follow up. Had documentation             of the two separate
_•:_•:••occurrences      involving Leung been placed in her file, the FBI might have
  .... been able to minimize further damage resulting              from her actions.
  _•_
   ....... _ " " •Smith continued
' • • _i.
                                        to operate Leung largely unquestioned         throughout
         the • 1990s.     Between    1990 and 1992, there were three different supervisors
         for th'_• Los Angeles China Squad and two different ASACs. Smith's
          supervisors     in Los Angeles continued        to overly defer to him because      he was
         perceived as an expert in the China Program.               We found that Smith took
        ••advantage     of FR.I Headquarters'      failure to follow up and intentionally      kept
         •his inexperienced      supervisors     in Los Angeles uninformedabout         the
          concerns     about Leung. Although Smith's supervisors            conducted     the
          requisite   reviews of Leung's tile with him, they were not familiar with the
          incidents    concelming    Leung's disclosures      to the PRC because     they were not
         consistently      documented      in her file.
                         Throughout     the 1990s, Smith continued          to characterize   Leung as
                "reliable" and '_stable" in his., communications          to FBI Headquarters     about
                her. In his semi-annual        evaluations     of Leung, Smith affirmatively      misled
                his supervisors     into believing that she had recently been polygraphed.              In
                fact, she had not been polygraphed           since 1986. By March 1993, the FBI
                had paid Leung over $700,000.            No one questioned       Smith's characterization
                of Leung and his supervisors         continued     to approve the budget requests
                Smith submitted       for her every six months.


                                                              11
                     d.      Smith's  Los Angeles Supervisor   Encountered
                             Smith and I_ung Returning     from an Ovelrseas
                             Flight and Failed to Alert Anyone in the FBI
        Another egregious management    failure occurred     inMarch     1992, when
Smith took five days of annual leave to take a sightseeing      trip around the
United Kingdom following a work-related      trip to London.    Unbeknownst     to
anyone in the FBI, Leung had flown to London to accompany            Smith on his
sightseeing   trip.
        Smith's supervisor, who transferred     from FBI Headquarters      to Los
Angeles in late 1991, decided to surprise     him by meeting him at the airport
upon his return to Los Angeles.      The supervisor,   who was acquainted        with
Leung, saw Leung at the airport when she went to meet Smith, but told no
one in the FBI about her observation.      When interviewed      as part of the FBI's
investigation   of Smith and Leung, the supervisor     initially admitted    that she
saw them both in the Customs       area of the airport after they disembarked
from their flight. However, she later claimed to the FBI and to us that she
did not see them together;   rather, she said she went to the airport       twice and
saw Smith and Leung there on different days.
         We found that the supervisor's    version of events was not consistent
with the evidence.    Customs   records establish      that Smith and Leung were
on the same fligJht and entered Customs         processing   at the same time.
Further,   Smith told us that he returned      to the United States on the same
flight as Leung amd that his supervisor       picked him up but did not mention
Leung at all during the ride home.       Smith said he was concerned       that his
supervisor    had seen Leung and Would then raisethe          issue with him or with
FBI Headquarteirs,    but the supervisor    faiied to doso.
        Despite being confronted    directly with evidence that Smith and Leung
were engaged in an inappropriate       relationship,   Smith's supervisor    did not
question    him, confront him, or report the situation      to FBI Headquarters.
We found that the supervisor      was overly dependent       on Smith, reluctant   to
confront him, and inappropriately       deferential  to him. Had she made tier
supervisors    and FBI Headquarters      aware of this issue, Leung's trip with
Smith might have forced the FBI to examine their relationship.

                     e.      Smith's   Overt Relationship    with Leung Results
                             in Dismissa_   of Negative   Reporting about her
        Smith and Leung were frequently        seen together at Chinese Consulate
functions   and banquets    honoring Chinese dignitaries        that Leung organized
throughout    the early 1990s.    Smith and other agents on the China Squad
attended   such functions   in accordance     with the FBI's role in the protection
of foreign officials.  They also attended    to make contacts       within the Chinese
community     in order to obtain counterintelligence      information.     ,_mlth and
Leung's overt relationship    at these events facilitated     these contacts,    but it

                                            12
      also •functioned    as a mechanism      for Smith    to easily   deflect   any negative
      reporting    by other assets about     Leung.
               In 1992, the Los Angeles Division received credible reporting
      indicating    that the PRC:had a person "working in the FBI," a woman named
      "Katrina" who was a double agent.       However, an inexperienced    agent on Los
      Angeles's    China Squad omitted Leung's name from the teletype transmitting
      this reporting    to FBI •Headquarters.     •
              In an attempt    to resolve the matter, FBI Headquarters        •directed Smith
      and an analyst to debrief the source of the reporting,          unaware      t]Sat the
      source had implicated        Leung.   Smith was the most experienced           agent on the
     China Squad, and •it would have been logical for Smith to have been
      involved in the debriefing      had Leung not been the source of the problem.
      Smith's •teletype to FBI Headquarters         detailing the debriefing    did not conceal
      that Leung was the subject of the negative reporting.            However, Smith also
      was able to deflect any concerns         this reporting  raised by criticiziing the
      source i_ofthe information      as a liar and a misogynist     and by rationalizing
      that _the •information    was consistent     with Smith's overt (and approved)
     relat_pnship     wifla Leung.
.....
  • ..... _•_:_:•We found that Smith's supervisor        in Los Angeles was too deferential       to
.... Smith to question         his lack of objectivity in defending    Leung to FBI
         Headquarters      and took no further action to resolvethe       matter.    At this time,
         the personnel     at FBI Headquarters     overseeing   Leung were relatively new to
_:i_:_• the•China     program,   were unaware     of the earlier concerns   about Leung, and
 _• thought        so highly of Smith that they did not question        his resolution, of the
••,_:•_• matter.   As a result, FBI Headquarters       let the matter of the negative
         repo_ting about Leung drop, with no further follow up.

            ........        f.      FBI Headquarters     Managers   Believed          They      Could
                                    not Interfere  in Field Operations
             During our review •we found that many FBI Headquarters                managers
     believed that they could not interfere in field office counterintelligence
     operations    unless   the field's actions contravened      specific rules in the
     Foreign Counterintelligence         Manual (FCIM). In a 1995 report, FBI
     Headquarters      touted the success of the decentralized         approach,   noting that
     managers     were !instructed     to take a "hands off' approach       and to always say
     _yes' to the field unless there were specific reasons to say 'no.' Several FBI
     Headquarters      supervisors     told us that as a result of this approach,      they
     believed they were in no position to tell the field what to do, and they did not
     perceive their responsibility       as truly supervising   or exerting control over
     field operations.     Rather, they functioned      in a support role.
            This attitude  was demonstrated    by one incident in which .an FBI
     Headquarters     SSA became suspicious    that Leung•had    been "redoubled"
     against the United States.    Instead of raising his concerns   directly to Smith
     or to Smith's supervisor   in Los Angeles, the SSA expressed     them in an
                                                   13
    administrative      note attached     only to the FBI Headquarters    copy ,of a
    document       responding    to a Los Angeles communication.       The SSA told us
    that the purpose       of the note was an attempt     to keep FBI Headquarters'
    executive management           informed that there may have been an issue
    concerning      Leung's loyalties.     We found no reaction to the administrative
    note and the SSA did not follow up on his concerns.
           Nevertheless,   the SSA said he had become sufficiently             concerned
    about Leung's re,porting and the amount           of money the FBI was paying her
    that he asked art analyst to do an in-depth          review of Leung's file at the end
    of 199.5. However, the SSA was transferred             before the review was Complete.
    The analyst discovered      that Leung had not been polygraphed             in ten years.
    The analyst drafted a teletype to Los Angeles directing that Leung be
    polygraphed    within six months.       Unfortunately,      the incoming SSA, who is
    now retired, altered the teletype because he believed the language the
    analyst used was too strong.         He told us that FBI Headquarters          ,could not
    compel the field to take action not specifically         required by the rules.      The
    SSA changed the language         in the teletype from an order that Leung be
:   polygraphed    to a suggestion     that Los Angeles consider        polygraphing     Leung.
    Smith used the :much softer language          of the edited teletype as reason to
    ignore it, and Leung was not given a polygraph             exam.
           The numerous       red flags that appeared     between    1990 and 199'6
    should have placedthe         FBI on notice of serious concernsabout         Leung's true
    loyalties, as well as Smith's relationship       with her. Several factors
    contributed   to Smith and Leung's evasion of sustained           supervisJion.   One
    problem was constant        turnover  of management:       there were four different
    FBI Headquarters     first-line supervisors     with oversight responsibility     for
    Leung between     1990 and 1996, and three different China Squad first-line
    supervisors   in Los Angeles.      As a result, Smith was the only person in the
    FBI with a complete understanding          of LeUng's operation.
             In addition,    Smith's supervisors        in both Los Angeles and at FBI
    Headquarters       told us that they did not have time to read Leung's
    voluminous       reporting   in its entirety.     Even if they had, documentation
    concerning     the numerous        red flags about Leung that surfaced       during this
    time period was not consistently            placed in Leung's file, and there was no
    centralized    repository    of derogatory      information   to warn Smith's supervisors
    about the problems         with Leung.
             Despite the problems     that arose during this period, Smith operated
    Leung with little oversight based primarily       on his status as a top agent in
    Los Angeles and Leung's status as atop asset.          While there were strong
    indications     that: Leung was providing classified information   to the PRC and
    that she had an unduly close relationship         with Smith, the FBI failed to take
    action to address      these concerns.



                                                 14
                                      4.   Fourth      Phase:       1996-2000

                     In October      1996, Smith• was promoted     to SSA of the China Squad in
             Los Angeles. Until his retirement          in November 2000, he continued• to
             operate Leung as a source with little tono supervision          or oversight.   Smith
             alsocontinued        to treat Leung as though she was a member of his squad,
             sharing     information     and consulting   with her about FBI operations    and
             investigations.
                            Smith's
                                  o
                                 AoAC,   who transferred      to Los Angeles in 1996, had no prior
             PRC FCI experience.         He did not review Leung's file, did not conctuct
             meaningful      file reviews with Smith, and deferred to Smith, much like
            Smith's     previous    supervisors.    The ASAC permitted         Smith to sign out his
            •own communications           to FBI Headquarters       concerning    Leung. The ASAC
             approved     Leung"s asset payments         but he did not examine the lists of
             itemized expenses        Smith submitted,      reasoning    that Leung's budget was
            •akin to .•a salary and that she would be paid the entire amount               allotted for
             her b_idget for services and expenses           every six months.
                       ._.,_..


       •••         •i_!!_::_he
                            ASAC did notice that in April 1990, Smith had received
    .....:: authorization        from FBI Headquarters     to pay Leung without a witness
     .... • present but had not sought to renew his exemption            from the rule
    _        throughout       the 1990s. 4 In 1999, the ASAC directed Smith to renew this
    •  • request,
        .                but•Smith     was again granted a blanket exemption      from the rule
             requiring     that two agents must witness asset payments,        without any
    ....._....
           i questions      concerning    his need for the exemption.   Although we tbun.d that
        •__ Smith did occasionally          have other agents witness payments     to Leung, most
    _ •.• ofthe• time he met her•alone           when paying her.
                     ,_,_y

•                  _:_}_;In
                         late September     1998, two years into Smith's tenure         as supervisor
             of the:China      Squad, a source told. the FBI that a Chinese American
             employee of a defense contractor         met a PRC intelligence      officer and
             exchanged       information  for cash.   In mid-October      1998, the Los Angeles
             Division opened an espionage         investigation    into the matter, which Smith
             supervised.       Smith told us that the source'sreporting        did not make any
             sense and he was frustrated         by the investigation.     Unbeknownst      to anyone,
             he briefed Leung and consulted         with her concerning      all aspects of the
             investigation.
                     Tocomplicate        matters,   another     FBI agent in Los Angeles, Who had a
             covert role in the espionage         investigation,    was a childhood    friend of the
             main subject's       spouse.    The agent allegedly accessed       information   about the
            investigation       without authorization        and told the subject he was under
             investigation.      Tihe agent was placed on administrative          leave and. was
             eventually     fired. She was subsequently           charged with a criminal offense and
             her case is pending.


                 4        In 1992, the.. FBI amended     the rule    to require   SACs to authorize   such   exemptions.

                                                                       15
        During the late 1990s, the FBI also learned that certain of its
operations    had been compromised        and that several of its assets ihad been
detained    and interrogated   •in China.   A task force was formed to address
these counterintelligence     issues.    Among its endeavors,    the task force
undertook     a review of other sources' files and slated Leung's file for review
because    she was one of the FBI's top PRC assets.
        .In spring _,000, FBI Headquarters
                    f_                               received reporting       from the source
whose information•had           predicated  the espionage       investigation     of the
employee of the defense contractor,           stating that Leung was an agent of a
PRC intelligence       service and had an internal source in the FBI. I'hl_ new
reporting    indicated     that Leung had disclosed        to the PRC the source's
relationship     with the FBI as well •as details concerning            the espionage
investigation.      In.credibly, given that• the information        potentially     implicated
Smith as Leung's internal          source, the Section Chief at FBI Headquarters,
who had been Smith's former ASAC in Los Angeles, immediately                         ink)rmed _
Smith about the reporting.
     • FBI Headquarters      decided •to use the task force to investigate     the
allegations  about Leung and her internal       source, •but the FBI found at the
time that the issue of the technical     compromises     was potentially   far more
damaging.     The 1:ask force worked extremely      slowly, did not identify the
information    necessary   to resolve the compromise      issues, lost the confidence
of the Section Chief, and was eventually       dissolved before reaching any
conclusions.

         In mid-2000,_ the FBI received another report from the same source as
 the spring report indicating       that Leung was _in bed with" the Los Angeles
Division of the FBI. Onceagain,           Smith was kept informed about•this
reporting.    The Section Chief, •who is nowretired,        told the OIG that•he did
 not suspect    Smith and it was unclear       whether the source meant the "in bed
with" comment       literally.  We concluded     that by providing Smith with the
 source information       that possibly implicated    Smith, the Section Chief
 abdicated   his responsibility     to ensure an untainted     investigation.
        In August 2000, the Assistant         Director for the Counterintelligence
Division, who is now retired, decided that no investigation               should be
conducted    based solely on the allegations         against Leung. He toM us that he
concluded    that the reporting     consisted    of•"sources    pointing fingers at each
other," and he maintained        that the issue was _not as clear as the written
reports would indicate."       We found his argument          was unconvincing      because
the source had made a specific allegation           against Leung but she had made
no such allegation      against the source.      Further,    while it was appropriate     to
question   the creclibility of the information,       the Assistant     Director did not to
take the necessary      steps to validate or disprove it. Finally, the allegation
pointed specifically     to the Origin of the problem and we believe the FBI
should have at least investigated        the allegation.


                                               16
                    Smith retired from the FBI in November 2000. He was never required
             to take a polygraph     examination,     as was initially suggested    by his Los
             Angeles supervisors      during the summer      of 2000.   FBI Headquarl:ers     officials
             told us that that they did not want Smith alerted that he might be the
             subject of an investigation      by asking him •to take a polygraphexam.         We
             found this rationale     puzzling because FBI Headquarters         officials knew that •
             Smith had been fully informed        about the initial allegation    that Leung was a
             PRC spy with an internal source in the Los Angeles Division of the FBI and
           _ of the later allegation   that Leung was "in bed with" the Los Angeles Division
             of the FBI. Further,     Smith told us that he assumed       he would be
           • investigated.   Smith claimed to us that out of loyalty to the FBI, ihe did not
             tell Leung about the reporting  even though he knew it was likely they would
             both be investigated
                  The FBI compounded     the mistake it had made in keeping Smith
        informed of the source reporting      by then failing to take steps to resolve the
        matter expeditiously.     Once Smith retired, the FBI no longer could compel
        him to:..take a polygraph    exam. Moreover, as discussed      below, a formal
        inveg-tigation of omyth was not opened until January
                 •                 • _, -             C_    °       2002, some 14 months
i_ii,i, after'.ihe retired from the FBI.
• =.f..,._.,.        .,.   .....          .        ....


  .,:,_.: '     We recognized      thatduring       the late 1990s through        2000, FBI
.....
   :_-:i_:-Headquarters China program officials were consumed                  with other high-
 ...... profile matters    such as the campaign           finance inyestigation      codenamed
   • CAMPCON and the Wen.Ho Lee investigation,                       which involved allegations-
  • that a Chinese-American              scientist    employed at the Los Alamos National
.:.:_;_).i,:Laboratoryin New Mexico stole computer              hard drives containing      nuclear
  .......secrets in order to turn them over to the PRC. However, we believe the FBI
 ..... still i_ould    have prioritized.the       investigation     of an allegation   that the PRC
         had 'an internal   ,,source in the Los Angeles Division of the FBI.
                                   ....




                                              5.           The Xnvestigations    of Smith   and Leung
                        Late in 2000, management       officials in the FBI Headquarters     China
                Section uncovered     the reporting  from 1990 indicating    that Leung had
                disclosed   to the PRC the existence    and location of the sensitive    technical
                operation    and aspects of the classified FBI counterintelligence    program.
                These officials told us that they believed the 1990 reporting      cons.tituted.
                independent     "pristine" evidence that I,eung had been providing
                unauthorized     information   to the PRC.

                       On January     30, 2001, the FBI's China Section prepared            a briefing
                paper for the FBI's Assistant      Director for the Counterintelligence:       Division    .
                encapsulating   the 1990 reporting        along with the more recent allegations
                that Leung was a spy for the PRC. The report recommended                 that the FBI
                open a full counterintelligence       investigation    on Leung.  In response,     FBI
                Headquarters    authorized     a full investigation     ofLeung.  A special squad in
                the Los Angeles Divisionwas         assigned     to conduct the investigation,     and all

                                                                                17
personnel   assigned   to the matter were required to pass a polygraph
examination     before the investigation began.: The investigation did not
actually begin until May 2001, a year after the FBI received credible
information   that Leung w_ts spying for the PRC.
        We found :no reasonable           explanation     for the long delay in tully
investigating      the allegation     that Leung had an internal         source in the Los
Angeles FBI office. The responsibility             for this delay was mainly attributable
to the Assistant       Director of the Counterintelligence          Division as the ultimate
decision maker concerning             this matter at FBI Headquarters,          who decided
that the source's reporting          that Leung had an internal         source in the Los
Angeles Division did not provide a sufficient basis to investigate                 :her. It is
particularly     puzTling that the Assistant          Director did not suspect Smith
because      the Assistant     Director was overseeing        the Robert Hanssen
espionage      investigation    at the.time.     Even after the FBI authorized         the full
investigation      in early 2001, it took several more months             for the investigation
to actually begin because          of the need to polygraph the individuals           assigned
to it.

         At the end of August 2001, the Los Angeles team investigating                   Leung
 issued a preliminary      report to FBI Headquarters          presenting    its view that .'an
 espionage    relationship    between an FBI employee and 5eung is unlik.ely. "s In
 early July 2001, the Los-Angeles          Division requested      that-FBI'Headquarters
 obtain approval :to use special techniques           to .investigate    Leung.    Sew_ral
 factors, .including the closely compartmented            .nature _of the investigation       and
 the events of September        11,2001,.delayed        FBI Headquarters'       response    to
Los Angeles's request. In December             2001,-theFBIobtained          the authority      to
use .special techniques       for the investigation.      Shortly thereafter,     the FBI
 discovered    that the relationship      betweenSmith        and Leung was more than
 friendship.     FBI surveillance    alsowitnessed       numerous      meetings between
 Smith and Leung at Leung' s house when Leung's family was not athome.
......    In JanuaFy   2002, members     of the Los Angeles investigatiw_       team
 traveled to FBI Headquarters      to brief the Acting Assistant       Director for the
 Counterintelligence     Division on the investigation.       The Acting Assistant.
 Director briefed the FBI Director,     who expressed      concern about the ]pace
 and scope of the investigation.      FBI Headquarters       and Los Angeles
 personnel     pointed to each other for the lack of progress       in the investigation.
 Following a meeting with Los Angeles and FBI Headquarters                representatives,
 the Director directed that a full field investigation       be opened on ,_mlth. The
 Director also appointed      Randy Bellows, a prosecutor        experienced    in FCI
 matters,    to review the Los Angeles-based     investigations     and suggest a
 course of action.


    5 This conclusion was not unique. The Assistant Director, who retired in November
2001, told us that even at that time he believed Leung was the problem, rather than Smith
and Leung.

                                                18
                    As a result    of his review, Bellows        recommended          that an independent
            task force headed       by an Inspector-in-Charge          be appointed         to take control      of
            the investigations      of Leung and Smith and• other counterintelligence                    issues.
           Based     on this recommendation,          the Director     created      the task force in
            February    •2002 to investigate     the numerous
                                                            ..-.,     counterintelligence         issues    that
           had surfaced        in Los Angeles.     The investigation       confirmed       that Smith      and
           Leung     were engaged      in a sexual    relationship.

                   Smith      and[ Leung were arrested          on April 9, 2003.        Smith was charged
           withlGross       Negligence    in Handling       Documents      Relating     to the National
           Defense      in violation   of Title 18, U.S.C. § 793(0.          He agreed      to cooperate     •with
           the government          and on May 12, 2004, he pleaded              guilty to one count        of
           making     •false statements      to the FBI during        the Personnel      •Security   Interview
           as part•of his background           reinvestigation,      in violation     of 18 U.S.C.    § 1001. 6
           In July_2005,        Smith   was sentenced        to three years' •probation        and a $10,000
           fine.    i
                          ..



                     Eeung     was charged        with Unauthorized           Copying       of National      Defense
            Information       with Intent      to Injure    the United       States     or Benefit     a Foreign
            Nation,_iin violation      of 18 U.S.C. § 793(b).            Leung spent three months                 in jail
            and,A8      months    in home detention            followingher        arrest.     In early January
            2005,_ U.S. District       Judge      Florence      Marie Cooper        dismissed       thecase       against
_     •:    Le_ng for prosecutorial           misconduct         based    on language         in Smith's      p][ea
  •         agreement       that specified       that Smith could not share further                  information
••          relating    to the case with Leung or her counsel.                    Judge      Cooper     found that
            this•_language      denied    Leung's      constitutional       right to a fair trial because             it
            obstructed      Leung's     access     to a witness       necessary       to her defense.        The U.S.
           •Attor._ey's    office appealed        Judge    Cooper's      dismissal       of Leung's      case to the
            Cou_Kof Appeals         for the Ninth Circuit.
                  •.__v

                   While the appeal       was pending,     plea negotiations       between     Leung •and
           the U.S. Attorney's      office continued     concerning      income     tax issues   that had
           surfaced    during   the investigation.      On December         16, 2005,    Leung pleaded
           guilty to one count      of lying to the FBI in violation        of 18 U.S.C.     § 1001 and
           one count of filing a false federal       tax return     in violation    of 26 U. °o.C.
           §7206(1).    7 That: same day, Leung was sentenced               pursuant     to the terms   of




                6 On the 5-year background reinvestigation    questionnaire   form, Smith asserted that
           he was not aware of any current or past circumstances      bearing on his suitability for
           continued federal employment or his access to classified information.     He told the
           investigating agent that he was not concealing anything that could be used to• pressure or
           coerce him or that could have an adverse impact on his character, judgment,
           trustworthiness,  or responsibility. This was a false statement because he did• not disclose
           his ongoing sexual relationship with Leung.
                7 As part of the initial espionage investigation, the FBI had interviewed Leung on
           December 11, 2002. During that• interview, Leung lied to• the FBI about her relationship
           with Smith, describing herself as nothing more than a good family friend of Smith's, and
                                                                    19
her plea agreement,     which provided that Leung must cooperate    in
debriefings   and ]prosecutors  would recommend     that a sentence of three
years' probation.,  100 hours of community    service, and a $10,000 fine. ••

        C.      Aftermath

         Following the discovery of Smith's •relationship             with Leung, the FBI
has taken steps to identify and correct deficiencies               in the China Program
and to improve asset handling             and vetting Procedures.        One of the most
 significant    changes    to the FBI's asset vetting and validation           efforts since the
uncovering       of Smith and Leung's relationship          has been the FBI's creation of
 specializedunits       which have implemented          a three-part    validation     review
process that consists         of a case agent assessment,        an analytical      production
evaluation,      and a counterintelligence       review. In the China program,             the
longest-running        and most problematic        assets were given high prioriVy and
reviewed first. By December             2005, the FBI had completed          several dozen
comprehensive        c,ounterintelligence     reviews of PRC assets.         Fewer than 10'
percent     of those assets reviewed were recommended                for closure for control
and reliability issues.
          The FBI's !Directorate   of Intelligence    has also become involved in the
area of asset vetting and validation.          It has begun an initiative •to simplify
theadministrative        handling  of the FBI's human•sources_        and to• ensure that
 their bona tides arecontinuously          validated.    As•of March 2006 the FBI was
 making efforts to insure its Validation review process and the Directorate             of
 Intelligence   administrative    handling     project are compatible.

IV,     Conclusion                                                 ..........

         The FBI's discovery that a• highly regarded veteran          FBI age, nt•like
 Smith was involved in a long-term,           intimate relationship   with his asset
 raised critical issues regarding        the FBI's overall management        of its agents
 and its counterintelligence       assets.    During our review, the OIG examined
 more than 300,{)00 pages of documents              and conducted    over 100 interviews
 to determine     how Smith and Leung were able to deceive the FBI for nearly
•20 years.    Our investigation     established     that while Smith himse]Lf bears
 much of theresponsibility        for the FBI's failure to detect that Leung 'was
 actively working for the PRC to a greater extent than the FBI realizecl,
 Smith's managers        in Los Angeles and at FBI Headquarters          failed to
 aggressively    question     him or to follow up when red flags arose. We
 concluded    that the FBI's inattention        to oversight of Smith and Leung, its
 willingness   to waive and exempt Smith from complying with the rules, and
 supervisory    mismanagement         allowed Smith to continue      his affair with
 Leung unimpeded         until his retirement.      Unfortunately,  through     Smith,


denying having traveled     to the United Kingdom with him in 1992.         Leung   also failed to
report to the IRS several    payments   the FBI made to her in 2000. •

                                                 20
        Leung's access to sensitive         FBI investigations       and information       also
        continued  until that time.

                In the early 1980s, at the beginning      of Leung's years as an FBI asset,
        Smith performed       the routine vetting and validation    procedures   in place at
        the time for assets and their information.        Further,  Leung passed two
        polygraph    examinations,     one in 1984 and one in 1986. Throughout          the
         1980s, the FBI valued the information        Leung supplied    and received positive
        feedback about her information         from other agencies.    As Leung's status
        grew in the Chinese community          in Los Angeles during the 1980s, so did
        Smith's stature as a perceived expert inthe FBI's China Program.             As a
        result, Smith's managers        in Los Angeles readily deferred to him and failed to
        adequately    address    concerns   about Leung that began to surface.
                 Major problems       in FBI oversight that we uncovered          during our review
         included   the lack of consistent       documentation      concerning     the many red
         flags evident throughout         Leung's tenure as an FBI asset, and a failure to
         followupto      ensure that red flags were resolved.         For example, as early as
         1987ilth'e FBI learned that Leung told a Chinese official to call her from a
         public telephone      because     she had something     urgent to convey tlhat she did
        not:want    anyone to hear. Despite an initial routine investigation                 reflected in
  :_    Leung's file, neither Smith nor his supervisors             documented       any resolution        of
 _      the_matter.     Two of the most serious incidents          took place in the early 1990s,
ii_f_   just 10 months        apart, and indicated      that Leung was providing classified
        information     to tlhe PRC without FBI authorization.           Again, the FBI failed to
 i_     document      the incidents     in Leung's file, relied on Smith to resolve the
        concerns    about Leung, and failed to follow up further to ensure that he had
        done_so. Out of an overabundance              of trust inhim,    Smith's managers           relied
        on S_ith to address the concerns            raised about Leung's activities and failed
        to dei_ermine how it was that Leung had obtained               the classified     iinformation
        she disclosed      to the PRC. While the FBI had procedures             in place, such as
        periodic case file reviews and analytic reviews, which could have helped
        detect not only Leung's duplicity but also Smith's improper                  disclosures      to
        her, the procedures         were not followed.
                Smith also exploited the inexperience              of his supervisors,     sometimes
        intentionally       deceived them, and circumvented            or ignored FBI rules with
        impunity.       Smitlh took advantage         of the substantial    deference he was
        afforded because of his stature            in the FBI's China program.          Many of
        Smith's managers           disregarded    or exempted      Smith from the FBI':s asset
        handling      rules, policies, and procedures          during his operation      of Leung. For
        example,      Smith's managers         in Los Angeles did not question         his failure to
        consistently       bring an alternate      agent to Leung's debriefings.         Further,  in
        1990 Smith received what amounted                  to a blanket exemption       from tJhe rule
        requiring     that two agents witness all payments             to an asset.    Smith's
        managers       failed to question      his need for the continued       exemption      and the
        practice continued          until his retirement.      Smith continued      to handle Leung

                                                         21
in 1996 when ' he became a supervisor,            an atypical practice in the FBI. His
immediate     supervisor      failed to conduct   the periodic asset file reviews the
FBI requires that supervisors           undertake   with their subordinates.     Taken
together,   these exemptions         from Usual asset handling     practices:removed
mechanisms       that could have allowed the FBI to more closely monitor the
asset-handler      relationship     between Leung and Smith.
         By 2000, the FBI had identified compromises      within the China
program     and in spring 2000 the FBI received reporting      that unquestionably
implicated    Smith as the source of information     Leung passed to the PRC.
Inexplicably,   an FBI Headquarters     Section Chief immediately     intbrmed
Smith about the reporting.      Moreover, the FBI did not undertake        a full
investigation   into the matter for nearly a year. Instead, the FBI allowed _
Smith to retire without being interviewed      and polygraphed.     Despite the
specificity of the allegations,  it took a year for the FBI to begin investigating
Leung, and a year and half to begin investigating       Smith.
        Prior to the investigations       of Leung and Smith, the FBI had undergone
espionage     investigations     and prosecutions      of two of its Special Agents, R. W.
Miller (who had also been assigned            to Los Angeles) and Earl Pitts.
Additionally,    by 2000 theFBI was conducting             a major espionage
investigation     soon to result in the arrest of another        Special Agent, Robert
Hanssen.      Against that backdrop,        the failure of the FBI immediately     to act
on the potential      significance   of allegations    that pointed directly to Smith is
even more troubling.                   _
         We found that that the performance       of several of the supervisors     with
 oversight for Smith and Leung was deficient.         Nearly all of them are now
retired.   We therefore make nodisciplinary        recommendations       concerning
them.     However:, the FBI Headquarters     Unit Chief responsible      for oversight
 of Smith and Leung in 1990 and 1991, when two of the most serious
 anomalies   occurred   indicating Leung was providing sensitive information           to
 the PRC without FBI authorization,      is still working for the FBI. FBI
 documents    establish   that he was aware of the two incidents       that occurred
just 10 months apart and failed to address        the significant concerns      raised
 by them.-Although      we do not believe his actions constitute    intentional
 misconduct,    they raise performance   concerns    that we believe the FBI should
 address.

         Finally, .in this report we offer 11 recommendations          designed to help
address the systemic issues that enabled Smith and Leung to escape
detection    and avoid accountability        for so long: We recognize that the FBI"
has developed and implemented            many of its own changes       to asset handling
and validation      since 2002 when Leung and Smith's relationship             was
discovered.      The FBI hasundertaken          several initiatives to identify and
correct deficiencies       in the China program.       As one example, the FBI made
significant    progress     towards validating    its PRC assets since it established    an
asset validation      review-process.

                                            22
             However, our recommendations                 go beyond the steps the FBI has
     implemented       since 2002. Our recommendations                  include continuing       the
     new FBI asset walidation review process and devoting sufficient :resources to
    •these reviews; creating a new subsection                in the asset file for red flags,.
     derogatory     reporting,     anomalies      and analyses;     requiring      a more thorough
     periodic background          reinvestigation      for long-term     assets; maintaining       a
     record of all documents          passed to or topics discussed           with assets; requiring
     alternate    case agents to meet with assets on a frequent basis; •limiting the
     time an agent can handlean              asset; fully implementing          its policy regarding
     counterintelligence        polygraph     examinations;       and prohibiting       blanket
     exemptions      to the asset handling         rules. • We believe that our
     recommendations,          if implemented,        will help the FBI improve further to avoid
     in the future the serious problems              that occurred     in this case.




•         ._,_ _.


          _,_,




                                                   23
